Audit of USAID/Dominican Republic
Participant Training Activities
Audit Report No. 1-517-03-007-P

September 9, 2003




           San Salvador, El Salvador
(This page intentionally left blank.)
September 9, 2003

MEMORANDUM

FOR:          USAID/Dominican Republic Director, Elena Brineman

FROM:         Acting Regional Inspector General/San Salvador, Christine M.
              Byrne

SUBJECT:      Audit of USAID/Dominican Republic Participant Training
              Activities (Report No. 1-517-03-007-P)

This memorandum is our report on the subject audit.

This report contains four recommendations for your action.             Regarding
Recommendation Nos. 1, 3, and 4, final action has been taken.          Regarding
Recommendation No. 2, no management decision has been reached.

Please advise my office within 30 days of the actions you have planned or taken
to implement Recommendation No. 2. Once you have a firm plan of action to
implement this recommendation, please provide it to us for our concurrence. The
Office of Management Planning and Innovation will make a determination of
final action after the recommendation has been completely implemented.

Once again, thank you for the cooperation and courtesy extended to my staff during
the audit.




                                                                                1
(This page intentionally left blank.)




                                        2
Table of   Summary of Results                                                          5
Contents
           Background                                                                  6

           Audit Objectives                                                            7

           Audit Findings                                                              7

                  Has USAID/Dominican Republic complied with selected                  7
                  requirements for administering participant training conducted in
                  the United States?

                            Trainees did not Exclusively Travel with J-1 Visas         8

                            Participant Training Files were not Complete               8

                            Conditions of Training Forms were not Completed           10

                            Monitoring Database was not Complete                      11

                  What have been the non-returnee rates for overseas participants     11
                  from the Dominican Republic who trained in the United States
                  and did USAID/Dominican Republic take appropriate action when
                  participants failed to return?

                  What additional actions should USAID/Dominican Republic take to     12
                  meet new requirements for selecting, monitoring, and reporting on
                  participants training in the United States?

                            Inappropriate Information Systems Access                  12

                  Other Matters                                                       13

           Management Comments and Our Evaluation                                     14

           Appendix I – Scope and Methodology                                         15

           Appendix II – Management Comments                                          17




                                                                                       3
(This page intentionally left blank.)




                                        4
Summary      As part of its fiscal year 2003 audit plan and in connection with an Office of
of Results   Inspector General worldwide audit on the topic, the Regional Inspector General/San
             Salvador conducted an audit to determine the following:

                •   If USAID/Dominican Republic complied with selected requirements for
                    administering participant training conducted in the United States (page 7).

                •   What the non-returnee rate was for overseas participants from the
                    Dominican Republic who were trained in the United States and whether
                    USAID/Dominican Republic took appropriate actions when participants
                    failed to return (page 11).

                •   What additional actions should USAID/Dominican Republic take to meet
                    new requirements for selecting, monitoring, and reporting on participant
                    training in the United States (page 12).

             USAID/Dominican Republic complied with a requirement to define participant
             training administration roles but did not comply with the requirements that
             trainees travel on the proper type of visa (page 8), that participant training files
             contain certain items (page 8), that Conditions of Training forms be used (page
             10), and that the monitoring database contain complete data (page 11).

             According to Mission officials, only one participant failed to return to the
             Dominican Republic since the beginning of fiscal year 2000. We could not
             determine whether the Mission’s actions in response to this participant were
             adequate because documentation was not maintained by the Mission (page 12).

             To meet new participant training selection, monitoring, and reporting
             requirements, USAID/Dominican Republic should assign data entry and data
             verification roles in accordance with USAID Visa Compliance – The Complete
             Guide (page 13).

             Finally, Mission officials raised concerns about the participant training activities
             that were not specifically related to the audit objectives. Their issues included
             concerns about the length of time required under the new participant training visa
             process to obtain J-1 visas, the utility of requiring J-1 visas for all trainees without
             exception, and the Mission’s role in processing visa applications for centrally-
             funded programs (page 13).

             We made four recommendations to address the items discussed in this report.
             Recommendations included that USAID/Dominican Republic ensure that
             participant trainees travel on J-1 visas (page 8); obtain insurance, medical
             eligibility, English proficiency, and tax identification numbers (page 10); ensure
             that participants sign training commitment forms (page 10), and limit access to
             visa application processing systems (page 13).


                                                                                                   5
             In responding to our draft report, USAID/Dominican Republic either presented
             steps being taken to address each recommendation or notified us why they
             believed the recommendation was not realistic. The Mission’s comments are
             included in their entirety in Appendix II (page 17).

             Although the Mission believed that Recommendation No. 1 was not realistic, final
             action was taken because it established a policy to use J-1 visas (page 14). The
             Mission agreed with Recommendation Nos. 3 and 4, and final action was taken on
             them (page 14). A management decision was not made on Recommendation No.
             2, because the Mission did not agree to ensure English proficiency of all
             participants (page 14).




Background   USAID’s participant training program is used for transferring knowledge, skills,
             and attitudes to foreign nationals overseas. These training activities may include
             academic degree and non-degree programs, technical training, study tours,
             observational tours, and conferences. Training can be conducted in the United
             States, in host countries, or in third countries. This audit only covered
             participants who attended training in the United States.

             USAID/Dominican Republic administers and monitors two types of participant
             training activities. One type allowed students to go to the United States to study
             under Georgetown University’s Cooperative Association of States for Scholarship
             (CASS) program. Under the CASS program, high school students competed for
             scholarships to community colleges in the United States to study agricultural
             administration, rural health services, quality control, electromechanical
             technology, nutritional science, or telecommunications.         Additionally, the
             program offered training at community colleges in the United States to
             experienced school teachers and nurses. The other type (non-CASS) allowed
             individuals to attend seminars and observational tours, typically lasting less than
             30 days, related to USAID/Dominican Republic’s strategic objectives.

             Beginning with fiscal year 2000, USAID/Dominican Republic provided the
             following statistics related to the numbers of participant trainees of each type.

                    Fiscal Year        Non-CASS             CASS              Total
                    2000                     48               43                91
                    2001                     42               35                77
                    2002                     39               47                86
                    2003                      0                0                  0
                    Total                   129              125               254




                                                                                              6
                 Participant training is of interest to the Office of Inspector General because of the
                 attention directed toward foreign students and visitors to the United States after
                 the September 11th terrorist attacks. Consequently, the Immigration and
                 Naturalization Service of the Department of Justice (now the Department of
                 Homeland Security) and the Department of State implemented new requirements
                 that affected visa application processes for all foreign students and visitors. The
                 new requirements obliged USAID to make changes in several decentralized
                 processes used to manage its participant training programs.

                 The participant training activities we analyzed included seminars, observational
                 tours, and scholarship programs from October 1, 1999 through March 31, 2003.



Audit            The Regional Inspector General/San Salvador included an audit in its fiscal year
Objectives       2003 audit plan to answer the following questions:

                    1. Has USAID/Dominican Republic complied with selected requirements for
                       administering participant training conducted in the United States?

                    2. What have been the non-returnee rates for overseas participants from the
                       Dominican Republic who trained in the United States and did
                       USAID/Dominican Republic take appropriate action when participants
                       failed to return?

                    3. What additional actions should USAID/Dominican Republic take to meet
                       new requirements for selecting, monitoring, and reporting on participants
                       training in the United States?

                 Appendix I describes the audit's scope and methodology.



Audit Findings   Has USAID/Dominican Republic complied with selected requirements for
                 administering participant training conducted in the United States?

                 In administering participant training conducted in the United States,
                 USAID/Dominican Republic complied with a requirement to establish roles for
                 personnel entering data, verifying data, and approving participant training
                 applications; however, it did not comply with the other following requirements
                 selected for review:

                    •   Trainees did not exclusively travel with J-1 visas to participant training
                        events.

                    •   Participant training files were not complete.


                                                                                                    7
   •   Conditions of Training forms were not completed.

   •   The monitoring database TraiNet was not complete.

In April 2003, USAID published a document titled USAID Visa Compliance – The
Complete Guide. The guide defined the roles that needed to be filled by Mission
personnel to administer participant training events. There were three roles defined in
the guide that were applicable to the Mission – data entry, data verification, and
participant training application approval. At USAID/Dominican Republic, staff
members were identified for and assigned to each of those roles.

In addition to reviewing whether roles were assigned, the audit considered whether
participant trainees traveled to the United States using J-1 visas, whether files were
complete, whether Conditions of Training forms were used, and whether the
monitoring data base was complete. The Mission did not comply with its
responsibilities in those areas.

Trainees did not Exclusively Travel with J-1 Visas

USAID policy in the Automated Directives System (ADS) section 253.5.6(a)
requires any foreign national attending a training activity in the United States,
who is sponsored fully or in part with U.S. Government funds, to enter the United
States on a J-1 visa (non-immigrant student visa for formally sponsored
students/participants). We reviewed a sample of 41 out of 86 participant trainees
from fiscal year 2002. Of the 41 in the sample, 31 participants traveled with J-1
visas and 10 did not. J-1 visas were not used in all instances because
USAID/Dominican Republic adopted a practice of allowing prominent
government officials or businessmen to use other types of visas if the trainee
already had a valid visa of another type for other purposes. As a result, the
federal government may not have tracked all participant trainees traveling or
studying in the United States and trainees did not become subject to the two-year
residency requirement, associated with J-1 visas, to reside in the Dominican
Republic after returning from training. Consequently, we are making the
following recommendation.

       Recommendation No. 1: We recommend that USAID/Dominican
       Republic comply with USAID regulations regarding the issuance
       of J-1 visas to all participants traveling to the United States for
       training.

Participant Training Files were not Complete

For some of the 41 participant trainee files sampled, the following documentation
was missing:



                                                                                    8
   •   Health and accident coverage.

   •   Certificates of medical eligibility.

   •   Evidence of English proficiency.

   •   Taxpayer identification numbers.

The participant training files at the Mission were used only as repositories for
information instead of as an active monitoring tool. Although the mission filed
documentation received, it did not maintain all documentation required by USAID
policies. As a result, the mission cannot be certain that health and accident
coverage, a certificate of medical eligibility, evidence of English proficiency, and an
individual tax identification number were obtained for each participant sponsored by
the mission.

Lack of Evidence of Health and Accident Coverage – Health and accident
coverage is required for all U.S.-based participants (ADS 253.5.6(b)). Of the 41
participant training files sampled, 31 files did not contain documentation of health
and accident coverage. According to mission officials the coverage may have been
provided by the contractors or grantees that coordinated the training event.
However, the mission did not ensure that coverage was obtained. Ensuring that
trainees have health and accident coverage is vital in that participants traveling
without insurance could incur unmanageable health care costs in the United States
Even though the medical costs would not be a liability to USAID, it would burden
the trainee.

Certificates of Medical Eligibility – Certification of medical eligibility for
admission to the United States on a J-1 visa is required unless the sponsoring unit
has purchased from a health and accident coverage contractor special insurance
coverage for short programs of 30 days or less (ADS 253.5.6(b)). One file reviewed
did not have a certificate of medical eligibility as required. According to a Mission
official, the certification may have been misplaced. A participant who is not
medically eligible may not be able to complete the training due to health reasons.

Participant Trainees are not Tested for English Proficiency – Proficiency in
English is required for participant trainees traveling with a J-1 visa, unless an
interpreter accompanies the participant (ADS 253.5.6(c)). Mission officials did not
comply with this requirement because they believed that participants had the needed
language skills or could acquire the language skills during training. The proficiency
requirement applied to 30 trainees of the 41 examined in the audit sample. Of those
30 trainees, none had evidence of proficiency in English. As a result, language
difficulties could have minimized the effectiveness of training sessions.




                                                                                     9
No Evidence of Individual Taxpayer Identification Numbers – Sponsoring units
or their contractors, grantees, and cooperating partners must ensure that an
individual taxpayer identification number (ITIN) is obtained for each participant that
is expected to incur a tax liability (ADS E253.5.2(b)). Of the 41 trainees in the
sample, the ITIN requirement applied to the 23 trainees studying under Georgetown
University’s Cooperative Association of States for Scholarship (CASS) program.
None of the files for those participants contained ITINs. According to a CASS
official, procuring ITINs was not a responsibility of the local CASS office. If they
were procured by CASS in Washington, copies were not sent to the Mission. As a
result, USAID cannot be certain that participant trainees received ITINs.

Based on the preceding, we are making the following recommendation:

       Recommendation No. 2:        We          recommend          that
       USAID/Dominican Republic establish procedures to ensure that
       training files contain evidence of health and accident coverage,
       medical eligibility, evidence of English proficiency, and tax
       identification numbers.

Conditions of Training Forms were not Completed

ADS 253.5.2 stipulates that participant trainees should complete a Conditions of
Training form (Form AID 1381-6). This form outlines commitments that the
trainee makes by accepting training from USAID. Some of the commitments the
participant trainee makes include the following:

   •   Return home immediately following training and remain for two years
       before attempting to immigrate to or work in the United States.

   •   Travel on a J-1 visa.

   •   Limit USAID’s liability for medical costs.

USAID/Dominican Republic used the form in connection with participant trainees
traveling to the United States under the CASS program but did not use the
required form in the cases of trainees involved in seminars or observational tours
lasting less than a few weeks. For these trainees, using the form seemed too
bureaucratic. As a result, participants traveling to seminars may not be aware of
the commitments related to their training.

       Recommendation         No.    3:    We    recommend       that
       USAID/Dominican Republic implement a procedure to ensure
       that all participants sign the required Conditions of Training
       form.




                                                                                   10
Monitoring Database was not Complete

ADS 253.5.2 (e) identifies TraiNet as USAID’s database management system for
monitoring participant training. Essential information was not entered into the
system in all cases. Of the 41 participant training files sampled, no data for one
individual was entered into TraiNet. Of the 40 individuals with data included in
TraiNet, several were missing information. Twelve trainees in the TraiNet database
were missing passport numbers, the type of visa issued, and the visa expiration date.
Data were missing because data entry was performed after the fact and was not
subject to verification and systematic data integrity checks. Consequently, data may
not provide useful or accurate information about a training program.

We are not making a formal recommendation to improve the data entry and
verification process for TraiNet because the Mission was already in the process of
implementing new procedures and a new version of TraiNet that includes data
entry and verification steps.

What have been the non-returnee rates for overseas participants from the
Dominican Republic who trained in the United States and did
USAID/Dominican Republic take appropriate action when participants
failed to return?

The non-returnee rate for overseas participants from the Dominican Republic who
trained in the United States between fiscal year 2000 and the middle of fiscal year
2003 was 1 out of 254 participants or 0.39 percent. We could not determine
whether actions taken by the Mission were appropriate when this participant
failed to return to the Dominican Republic.

The non-returnee rate figure was based on data provided by the Mission.
USAID/Dominican Republic provided a listing of individuals who participated in
training in the United States from the beginning of fiscal year 2000 through the
middle of fiscal year 2003. We did not independently confirm that the other
participants returned to the Dominican Republic because evidence to verify
participants’ return was not available at the Mission.

ADS E253.5.2 requires that missions or their partners report participants that do
not return from training to the USAID bureau in Washington that oversees
participant training activities. As mentioned previously, USAID/Dominican
Republic reported only one instance of a participant failing to return from training
since the beginning of fiscal year 2000. Mission officials could not recall if
notice was sent to Washington that the participant failed to return home after
training, and the Mission could not provide evidence of having done so. To
follow up on the instance, a Mission official with responsibility over the program
reported that he attempted to locate the non-returning participant by seeking
information from the participant’s employer. Nevertheless, he was not able to



                                                                                  11
locate the trainee, and the Mission was not able to attempt to recover the cost of
training (approximately $1,300).

We did not make a determination about whether the Mission took appropriate
action to locate the non-returning participant because the actions taken were either
not documented or were not available at the Mission. Trying to make an
assessment solely on the recollection of individuals regarding actions taken three
years ago did not seem reasonable. Since participants failing to return has been
an infrequent problem (according to the non-returnee statistics provided by the
Mission), we are not making any recommendations related to the adequacy of
actions taken by the Mission in the instance as noted above. Likewise, we are not
making a recommendation related to the lack of documentation. We would like to
remind the Mission of the need to document events such as this, but a formal
recommendation is not considered necessary.

What additional actions should USAID/Dominican Republic take to meet
new requirements for selecting, monitoring, and reporting on participants
training in the United States?

USAID/Dominican Republic should take action to meet new requirements for
selecting, monitoring, and reporting on participants training in the United States
by assigning access to visa processing systems consistent with responsibilities
defined in USAID’s visa compliance guide.

Inappropriate Information Systems Access

As mentioned previously in the report, The USAID Visa Compliance – The
Complete Guide defines the responsibilities that people should have under the
participant training visa process (see page 8). Mission officials involved in the
process should have the ability to perform only data entry, data verification, or
visa application approval. According to the guide, the three responsibilities
should be filled by three separate individuals.

At USAID/Dominican Republic, three distinct individuals were identified to fill
each of the three roles; however, access within the computer system had been
enabled to allow two of those individuals to perform both data entry and data
verification tasks. According to Mission officials, this was done intentionally in
order to ensure that visa applications could be processed even if one of the people
with primary responsibilities for entering or verifying data happened to be away
from the office. Unfortunately, allowing a single individual access to data entry
and data verification tasks within the system could result in data entry errors.

To bring the Mission into conformity with the USAID Visa Compliance – The
Complete Guide, we make the following recommendation:




                                                                                 12
       Recommendation     No.    4:   We    recommend      that
       USAID/Dominican Republic limit access to visa processing
       systems in accordance with USAID Visa Compliance – The
       Complete Guide.

Other Matters

During the course of the audit, officials at USAID/Dominican Republic voiced
concerns about certain issues related to the participant training program that were
not specifically related to the audit objectives. Officials were concerned about the
following:

   •   The length of time required to obtain J-1 visas for participant training
       travel.

   •   The utility in requiring all participant trainees to travel on J-1 visas.

   •   The apparent lack of TraiNet access in Washington for USAID personnel
       stationed there to input participant trainee visa information.

Under the visa application process, USAID Visa Compliance – The Complete
Guide states that a minimum of eight weeks will be needed to obtain a J-1 visa for
trainees. Although Mission officials attempt to plan their training events with
sufficient lead time, there could be instances when officials may not become
aware of an event eight weeks prior to the event or alternate participants may need
to be sent as a result of changes to personal schedules. Mission officials were
concerned that important training events could be missed because of the eight
week period required to obtain visas.

According to Mission officials, a significant number of people who travel to the
United States to attend seminars or other short training events already have some
type of valid visa to enter the United States other than a J-1 visa. Requiring
individuals who already have a visa to obtain a second visa was seen as inefficient
and at times offensive to Dominican Republic government officials or prominent
business leaders. The issue is exacerbated by the fact that immigration law,
according to the Regional Legal Advisor and the U.S. Consulate in the Dominican
Republic, does not stipulate the use of the J-1 visa, without exception.

A final concern of the Mission’s participant training staff resulted from a request
for assistance from a USAID/Washington official. The official in Washington
was involved in a centrally funded activity that needed to obtain visas for two
individuals living in the Dominican Republic. Because this official did not have
access to TraiNet in Washington, the official requested that Mission personnel
input the visa application information into the system. From the Mission’s point
of view the problem was that it had no involvement with the program and no
familiarity with the participants. The Mission was concerned that it may not be


                                                                                   13
                 proper for Mission employees to assume responsibility for data entry, verification,
                 and authorization over trainees from other programs.




Management       In responding to our draft report, USAID/Dominican Republic either presented
                 steps being taken to address each recommendation, or notified us why they
Comments and     believed the recommendation is not valid or actionable. Its comments are
Our Evaluation   included in their entirety in Appendix II.

                 Regarding Recommendation No. 1, although the Mission disagreed with the
                 reasonableness of the Automated Directives System (ADS) requirement, the
                 Mission approved a new Participant Training Mission Order which stipulated that
                 a J-1 visa is required for each participant traveling to the United States.
                 Therefore, final action has been taken on this recommendation.

                 Regarding Recommendation No. 2, the Mission approved a new Participant
                 Training Mission Order to ensure that training files contain evidence of health and
                 accident coverage, medical eligibility, and evidence of English proficiency.
                 Furthermore, the Mission Order anticipates that individual tax identification
                 numbers (ITIN) will be communicated through TraiNet. However, regarding
                 procedures to ensure that participants become proficient in English,
                 USAID/Dominican Republic stated that it “has no way of knowing what the
                 participant’s English ability is after the completion of the CASS English training,
                 and before participants start their actual scholarships.”            Whereas it is
                 understandable that participants studying under the CASS program typically are
                 not proficient when they begin the program; that does not negate the need to
                 ensure that students attain proficiency in English before continuing with their
                 studies. A procedure to monitor students’ proficiency after English training but
                 before beginning scholarship is critical to ensure that the student can successfully
                 complete the program. Consequently, for this recommendation, a management
                 decision has not been made with respect to English proficiency.

                 Regarding Recommendation No. 3, the Mission agreed with the reported finding
                 and has already implemented a new Participant Training Mission Order requiring
                 that all participants sign a Conditions of Training Form. Therefore, final action
                 has been taken on this recommendation.

                 Regarding Recommendation No. 4, the Mission agreed with the reported finding
                 and has already limited access to visa processing systems in accordance with
                 USAID Visa Compliance – The Complete Guide. Therefore, final action has been
                 taken on this recommendation.




                                                                                                  14
                                                                                      Appendix I




Scope and     Scope
Methodology
              We audited participant training activities at USAID/Dominican Republic in
              accordance with generally accepted government auditing standards.

              We conducted the audit at USAID/Dominican Republic. The participant training
              activities we analyzed included seminars, observational tours, and scholarship
              programs in the United States from October 1, 1999 through March 31, 2003.

              To answer the audit objectives, we conducted interviews with Mission officials,
              the regional legal advisor in the Dominican Republic, strategic objective team
              leaders, U.S. embassy officials, and funding recipients.

              In conducting our audit, we assessed the effectiveness of USAID/Dominican
              Republic’s management controls with respect to participant training activities.
              We identified management controls as:

                 •    Maintenance of participant training files.

                 •    Maintenance of data in the participant training database TraiNet.

                 •    Use of J-1 visas.

                 •    Collaboration between strategic objective teams, contractors and grantees,
                      and Dominican Republic government counterparts in selecting training
                      events and participants.

                 •    Definition of participant training roles.

              Methodology

              Related to our first audit objective, we tested whether the Mission used J-1 visas
              and documented that participants obtained health and accident coverage, medical
              eligibility certification, English proficiency tests, tax identification numbers, and
              Conditions of Training forms as required in USAID’s Automated Directives
              System section 253. To do so, we selected participant training files for fiscal year
              2002 using statistical sampling techniques. Although the population included 87
              participant trainees, one participant who was selected as part of the sample did not
              actually leave for training because of health reasons. As a result, the population
              of trainees who traveled was 86. Assuming a 5 percent error rate, we designed
              the sample to provide 95 percent confidence with 4 percent precision. The



                                                                                                15
                                                                         Appendix I

resulting sample size was 42 trainees. As mentioned one of those did not travel,
so we examined 41 participant trainee files for evidence of health and accident
coverage, medical eligibility, English proficiency tests, tax identification
numbers, and Conditions of Training forms.

To determine the significance of our findings related to the testing done under the
first audit objective, we set the threshold for a qualified opinion at 5 percent error
rate for the sample tested. We set the threshold for an adverse opinion at 10
percent.

For our second objective, we calculated the non-returnee rate based on
information provided by USAID/Dominican Republic. We did not test whether
the individuals listed in the Mission’s records actually returned to the Dominican
Republic as indicated by Mission officials because the necessary evidence, such
as a copy of a passport page with an entry stamp, was not available at the Mission.

For the third objective, we interviewed Mission officials with duties described in
USAID Visa Compliance – The Complete Guide.

Setting significance thresholds for the second and third objectives was not
necessary as they were descriptive in nature.




                                                                                   16
                                                                                           Appendix II



Management
Comments
                       UNITED STATES AGENCY FOR INTERNATIONAL
                                    DEVELOPMENT
                                     SANTO DOMINGO, DOMINICAN REPUBLIC

                                         UNITED STATES GOVERNMENT
                                               MEMORANDUM

         To:             Christine M. Byrne, CPA
                         Audit Manager, USAID Regional Inspector General,
                         San Salvador, El Salvador

         From:           David Delgado, Acting Mission Director
                         USAID/Santo Domingo

         Subject:        Mission Response to Participant Training Audit

         Date:           August 18, 2003



         USAID/DR provides the following response to the audit of USAID/Dominican Republic
         Participant Training Activities, conducted by RIG, San Salvador in April 2003 in Santo
         Domingo.

         Summary: USAID/DR appreciates the time and thoroughness of the Regional Inspector
         General auditors. The resultant recommendations will help ensure that the Mission is in
         compliance with ADS guidelines and the new Visa Compliance System. Our responses
         note that the Mission anticipates possible changes to the ADS with respect to J-1 visas, and
         we welcome comments on our interpretation of this requirement. The Mission also would
         like to highlight the difficulty in maintaining completed files for participant trainees that are
         managed through the centrally-funded Cooperative Association of States for Scholarship
         (CASS) program between USAID/W and Georgetown University. The audit enabled the
         Mission to engage the Latin America and Caribbean (LAC) Bureau and Georgetown
         University in a useful email dialogue about how best to comply with all of the ADS
         requirements, Visa Compliance System (VCS) procedures, and Trainet database. It
         became clear that not all of these functions are the primary responsibility of the Mission.
         We believe that this dialogue should continue, as it will prove helpful to all Latin American
         USAID Missions that participate in the CASS program (as well as other cases where



                                                                                                       17
                                                                              Appendix II

centrally-funded training programs are managed by field Missions). More importantly, the
results of this dialogue should be solidified through appropriate policy changes to the ADS.

Recommendation No. 1: We recommend that USAID/Dominican Republic comply
with USAID regulations regarding the issuance of J-1 visas to all participants
traveling to the United States for training.

Mission’s Response: USAID/DR believes that we are complying with USAID
regulations regarding the issuance of visas. The Mission has worked closely with the
Consular Section of the U.S. Embassy in Santo Domingo to ensure that the visas issued
to individuals traveling to the United States with USAID funding were legally sufficient
and were in the best interest of all the parties involved.
There is no statutory or regulatory requirement that all individuals who travel to the
United States with U.S. government funding travel with a J-1 visa. Rather, as a matter
of policy, USAID has concluded that the Agency has a strong interest in having
individuals travel with J-1 visas so that (1) the people who the Agency sends to the U.S.
for training return to their home countries for at least two years to share the development
knowledge acquired in the U.S.; and (2) these individuals can be tracked in accordance
with the SEVIS regulations, which helps the USG better control our borders.

Nevertheless, in certain situations, an individual who USAID is funding for travel to the
U.S. may already have a visa or the J-1 visa may not seem to make sense for that
individual. An example of this would be when USAID wishes to send a prominent
business person to the U.S. to participate in a short trade seminar. First, that individual
already may have a B-1 visa. Second, that individual may later choose to expand
operations to the U.S. (which is in the U.S.’s interest of creating jobs and creating
economic growth domestically) and that individual may be eligible for an L-1 visa (or
some other type of investor’s visa) in the future. Requiring this individual to get a J-1
visa might not make sense.
 Another example would be sending a high level government official, such as a Supreme
Court Justice, who already has a diplomatic (A visa) to the United States to participate in
a short conference. It is highly unlikely that such an official would jeopardize his or her
diplomatic status by overstaying his or her visa, and the individual may not wish to
travel to the United States if it means jeopardizing the individual’s current visa. In such
a case, it would be against the U.S. government’s interest to require that individual to
travel with a J-1 visa.

For these reasons, the Mission believes that the ADS should be revised and new
guidance issued that makes it clear that it is USAID policy, not U.S. law, which states
that individuals travel only on J-1 visas. Mission Directors should also be given
authority to deviate from this policy. USAID/Washington may choose to reserve
approval of any deviation from this policy.

For these reasons, USAID/DR does not feel that this is a valid recommendation or one
that can arrive at a management decision with final action to be taken. The Mission


                                                                                         18
                                                                            Appendix II

requests that the Regional Inspector General for Audit review this recommendation
based on our discussion above to consider whether the recommendation is valid, or
whether it can be modified into something more concrete to arrive at a management
decision where final action can be taken. In the meantime USAID/DR has increased
attention to assure compliance with regulations in this area; continues to work closely
with the Consular Section of the U.S. Embassy to assure compliance with USG laws;
and is providing input to the ADS revision based on actual cases.

Recommendation No. 2: We recommend that USAID/ Dominican Republic establish
procedures to ensure that training files contain evidence of health and accident
coverage, medical eligibility, evidence of English proficiency, and tax identification
numbers.

Mission’s Response: A new Participant Training Mission Order was approved by the
Acting Mission Director on August 18, 2003. The Mission anticipates 100%
compliance with the required documentation for health and accident coverage, medical
eligibility, and evidence of English proficiency or an exemption waiver signed by the
CTO or appropriate Mission official (per ADS 253.5.6(c)). These documents may be
housed at the USAID Mission or with a USAID contractor or grantee.

In the case of individual tax identification numbers (ITIN) for participant trainees who
will incur a tax liability, the applicable trainees in the USAID/DR audit were all CASS
participants. The CASS central program is responsible for obtaining ITIN and sending
verification of ITIN to the Mission through Trainet. The Mission, therefore, cannot
control the issuance of ITIN for CASS scholars. Additionally, because CASS
participants receive English training upon arrival in the U.S., the Mission will sign
exemption waivers for the English proficiency requirement for all future CASS
participants, as the Mission has no way of knowing what the participant’s English ability
is after the completion of the CASS English training, and before participants start their
actual scholarships. Because of the unique nature of the CASS program, perhaps the
ADS should be revised with discrete paragraphs on responsibilities for ITIN and English
proficiency with respect to CASS participant trainees.

Based on the above discussion, and the issuance of the new Participant Training Mission
Order No. 253 – approved by the Acting Mission Director on August 18, 2003 (copy
attached) – USAID/DR requests a determination that a management decision has been
reached and that final action has been taken.

Recommendation No. 3: We recommend that USAID/Dominican Republic implement
a procedure to ensure that all participants sign the required Conditions of Training
form.

Mission’s Response: The newly-approved USAID/DR Mission Order on Participant
Training requires full compliance with this recommendation and will be duly
implemented. Based on the issuance of the new Participant Training Mission Order No.


                                                                                      19
                                                                      Appendix II

253, USAID/DR requests a determination that a management decision has been reached
and that final action has been taken.

Recommendation No. 4: We recommend that USAID/Dominican Republic limit
access to visa processing systems in accordance with USAID Visa Compliance – The
Complete Guide.

Mission’s Response: The Mission complied with this recommendation on August 1,
2003. Please see attached email [Not included in Report] to from EGAT/HCD for
confirmation that Sonia Richiez’s role as a “Verifier” was removed from the VCS
system. Based on this action, USAID/DR requests a determination that a management
decision has been reached and that final action has been taken.




                                                                               20
